Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




Protecting Human Research Subjects

       Status of Recommendations




                   JUNE GIBBS BROWN
                    Inspector General

                       APRIL 2000
                      OEI-01-97-00197
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, is to
protect the integrity of the Department of Health and Human Services programs as well as the
health and welfare of beneficiaries served by them. This statutory mission is carried out through a
nationwide program of audits, investigations, inspections, sanctions, and fraud alerts. The
Inspector General informs the Secretary of program and management problems and recommends
legislative, regulatory, and operational approaches to correct them.

                            Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Boston regional office prepared this report under the direction of Mark R. Yessian, Ph.D.,
Regional Inspector General. Principal OEI staff included:

REGION                                                   HEADQUARTERS

Nancy London, Lead Analyst                               Elise Stein, Program Specialist

Aimee Kasenga, Program Analyst

Laura McBride, Program Analyst

Nicola Pinson, Program Analyst





        To obtain copies of this report, please call the Boston Regional Office at (617) 565-1050.
          Reports are also available on the World Wide Web at our home page address:

                                  http://www.dhhs.gov/progorg/oei
                     EXECUTIVE SUMMARY

PURPOSE

        To provide an update of National Institutes of Health (NIH) and Food and Drug
        Administration (FDA) responses to recommendations we directed to them in a June 1998
        report entitled, Institutional Review Boards: A Time for Reform.

BACKGROUND

Our June 1998 Report on Institutional Review Boards

        Institutional review boards (IRBs) play a central role in providing human-subject
        protections. In our June 1998 report, we warned that the effectiveness of these boards
        was in jeopardy and presented numerous recommendations to NIH, its Office for
        Protection from Research Risks (OPRR), and FDA. In our call for widespread reform, we
        conveyed a sense of urgency, one that was reinforced by one of our prior inquiries. In that
        inquiry we discovered disturbing inadequacies in IRB oversight of clinical trials involving
        investigational medical devices.

Subsequent Actions

        Since the issuance of our report, human subject protections have received considerable
        attention within the Department and at the national level. Congress has held two hearings
        addressing how the effectiveness of IRBs can be improved. The National Bioethics
        Advisory Commission (NBAC) has continued its deliberations on what reforms should be
        undertaken. The Secretary of Health and Human Services (HHS) has decided to relocate
        OPRR to the Office of the Secretary and to establish an advisory committee to provide
        scientific and ethical guidance to OPRR. Both NIH and FDA have been engaged in
        multiple efforts to address how human subject protections can be enhanced. With the
        death of a teenager participating in a gene transfer clinical trial funded by NIH, they have
        given particular attention to ways of improving the oversight of such trials.

This Follow-up Report

        In this report, we provide an accounting of how fully our prior recommendations have
        been enacted. We do that because they have attracted substantial attention and because
        we believe they remain timely. In providing this update, we draw on information obtained
        over the past two years from HHS officials and from pertinent HHS documents. This
        report is deliberately limited in scope. It does not represent a further examination of the
        adequacy of the Federal oversight of human subject protections or of the protections
        themselves. It accepts as a starting point our prior recommendations and seeks to provide
        an accounting of how fully they have been carried out.

Protecting Subjects: Status of Recommendations   1                                    OEI-01-97-00197
UPDATE

Since June 1998, there has been a substantial increase in the enforcement of
Federal human-subject protection requirements.

        Investigations. Between April 1997 and May 1998, NIH/OPRR had conducted an on-
        site investigation at only 1 institution. Between June 1998 and March 2000, it conducted
        on-site investigations at 10 institutions. FDA’s number of routine on-site investigations of
        IRBs increased from 213 in Fiscal Year 1997, to 253 in FY 1998, and 336 in FY 1999.

        Sentinel Effect. OPRR’s reviews, which have occurred at major medical centers and
        have resulted in the suspension of federally funded research at 7 institutions, have been
        particularly influential in drawing attention of the national research community to the
        adequacy of IRB oversight and human-subject protections.

Several promising steps have been taken.

        NIH and FDA have enacted two of our recommendations. NIH now requires data and
        safety monitoring boards to share summary information with IRBs and FDA now informs
        sponsors and IRBs about its findings of clinical investigator misconduct.

        In addition, both agencies have ongoing initiatives, particularly in the area of education.
        NIH and FDA continue to be active in educational outreach and programs, conducting
        numerous training presentations and seminars. OPRR hired a full-time educational staff
        person and is in the process of further expanding its educational staff. FDA convened a
        national meeting addressing current issues in human subject protections and has had
        numerous workgroups examining specific issues. NIH, also, has constructed a website
        containing bioethics resources.

But overall, few of our recommended reforms have been enacted.

        Flexibility and Accountability. Minimal progress had been made in recasting Federal
        IRB requirements so that they grant IRBs greater flexibility and hold them more
        accountable for results. Too much IRB attention now focuses on review responsibilities
        of questionable protective value.

        Oversight and Protections. Minimal progress has been made in strengthening continuing
        protections for human subjects participating in research. Continuing IRB review of
        research after it has been initially reviewed is a low priority at many IRBs. IRBs know
        little of what actually occurs during the consent and research processes.

        Education. No educational requirements have been enacted for investigators or IRB
        members. The most important continuing protection for human subjects is the presence of
        well-trained and sensitized investigators and IRB members.


Protecting Subjects: Status of Recommendations    2                                    OEI-01-97-00197
        Conflicts of Interest. There has been no progress in insulating IRBs from conflicts that
        can compromise their mission in protecting human subjects. The increased
        commercialization of research and the growing importance of research revenues for
        institutions heightens the potential for conflicts of interest in clinical research.

        Workload. Minimal progress has been made in moderating workload pressures of IRBs.
        IRBs are inundated with protocols and adverse event reports. With limited personnel and
        few resources, many IRBs are hard-pressed to give each review sufficient attention.

        Federal Oversight. Minimal progress has been made in reengineering the Federal
        oversight process. Federal oversight of IRBs is not equipped to respond effectively to the
        changing pressures and needs of the current system of protections.

        For a complete accounting of our prior recommendations and any Federal responses to
        them, see text beginning on page 9 and appendix C.

The Common Rule represents a significant barrier to HHS progress in
implementing many of our recommendations.

        In 1991, the HHS core regulations concerning IRBs and human-subject protections
        became the basis of a common Federal policy on human-subject protections. Known as
        the Common Rule, this policy is adhered to by HHS and 16 other Federal agencies. Any
        changes to the Rule call for the concurrence of all 17 agencies.

        Many of our recommendations call for changes in the Common Rule. NIH has
        emphasized to us that it cannot make those changes without the consent of the other
        agencies and that such a process is a long, complex one with uncertain results. We have
        to recognize that its observation is well-based.

        The goal of a common Federal rule is an important one. It can foster a level of
        consistency in protecting human subjects and make it easier for researchers and sponsors
        to understand and comply with regulations. Yet, we must acknowledge that the reality of
        gaining concurrence among 17 Federal agencies inhibits a timely response to many of our
        recommendations and to the rapidly changing developments in the clinical research
        environment. In view of this reality, legislative change may well be necessary to achieve a
        timely implementation of many of our recommendations.


LOOKING AHEAD

Gene Transfer as a Catalyst

        The recent national attention given to gene transfer trials has raised the public’s awareness
        of the risks that can be associated with clinical research and has prompted several
        important initiatives by NIH and FDA. One is a new requirement calling for study

Protecting Subjects: Status of Recommendations    3                                   OEI-01-97-00197
        sponsors to submit to FDA monitoring plans for gene transfer trials; another is a series of
        symposia that will be held on the directions and safety of such trials.

        These initiatives may prove to be quite helpful, but they apply only to gene transfer
        research trials. We urge that these initiatives serve as a catalyst for improving human-
        subject protections for the broad universe of clinical trials, particularly those in which
        patients face significant risks.

        Our prior inquiry convinced us that often too much is expected of IRBs and that IRBs
        alone can not provide a sufficient degree of protection. That is why we gave so much
        attention to Federal actions that could be taken to help educate investigators about
        human-subject protections. It is why we have called in a subsequent report for the
        development of stronger guidelines on human-subject recruitment practices. And, it is
        why we drew attention to the vital roles that, for example, the Data and Safety Monitoring
        Boards can play particularly for trials that pose significant risks to patients.

New Opportunity for Leadership

        Once OPRR is located in the Office of the Secretary and a new advisory committee on
        protection from research risks is established, as the HHS Secretary has called for, HHS
        will have a significant new opportunity to exert Federal leadership in protecting human
        subjects.

        We urge that the new office give significant attention to our prior recommendations and to
        those that will be forthcoming from NBAC. We also urge that it continue the important
        enforcement efforts undertaken by OPRR over the past 2 years. In increasingly
        commercialized research environments where IRBs are facing heightened pressures to
        conduct quicker reviews, the NIH/OPRR efforts have served as a reminder to research
        institutions, sponsors, individual investigators, and IRBs that the reviews must still be
        substantive ones that ensure adequate protections for human subjects. They must not only
        protect subjects from unnecessary physical harm, but must ensure that the informed
        consent process is one that fosters understanding and voluntary participation.




Protecting Subjects: Status of Recommendations    4                                     OEI-01-97-00197
                            TABLE OF CONTENTS

                                                                                                                                   Page


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1



INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6



Primer on HHS Oversight Roles and Competencies . . . . . . . . . . . . . . . . . . . . . . . . . . . 8



UPDATE

          Increased enforcement of subject protections . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

          Promising steps, but few recommendations enacted . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

          The Common Rule is a barrier to progress . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17



LOOKING AHEAD . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18



APPENDICES

          A:   Institutional Review Boards: The Basics . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                  20

          B:   Findings from Institutional Review Boards: A Time for Reform . . . . . . . . . . . . . . .                                 22

          C:   Current Status of FDA and NIH/OPRR Response . . . . . . . . . . . . . . . . . . . . . . . . .                              24

          D:   Endnotes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   25





Protecting Subjects: Status of Recommendations                      5                                                  OEI-01-97-00197
                                INTRODUCTION

PURPOSE

        To provide an update of National Institutes of Health (NIH) and Food and Drug
        Administration (FDA) responses to recommendations we directed to them in a June 1998
        report entitled, Institutional Review Boards: A Time for Reform.

BACKGROUND

Our June 1998 Report on Institutional Review Boards

        Institutional review boards (IRBs) play central roles in protecting human subjects enrolled
        in clinical research. In a June 1998 report, which was based on more than a year of
        extensive inquiry, we found that the effectiveness of IRBs was in jeopardy. While we did
        not claim there were widespread abuses of human research subjects, we did warn that the
        capacity of IRBs to accomplish all that is expected of them is strained. We conveyed a
        sense of urgency that was buttressed by earlier findings by a Presidential advisory body, by
        the General Accounting Office, and by one of our own prior inquiries.1 In that inquiry we
        examined clinical trials involving four investigational medical devices and in each case
        discovered disturbing inadequacies related to IRB oversight.

        In our June 1998 report, we presented six sets of recommendations. We directed them
        jointly to the two entities within the Department of Health and Human Services (HHS)
        that are responsible for IRB oversight: NIH, through its Office of Protections from
        Research Risks (OPRR), and the FDA (for a primer on HHS oversight roles, see page 8).

        In the formal comments they offered on our recommendations, both NIH and FDA
        expressed a number of reservations. But overall their reactions were quite positive. NIH
        responded as follows: “Twenty-four years after the initial promulgation of our
        Department’s rules for protection of human subjects, your summary of the challenges
        today facing IRBs, and your recommendations for DHHS oversight, form important
        additions to the evolving body of analysis of our system of protecting human subjects in
        research.” Similarly, FDA indicated that the reports “highlight and add support to a
        number of areas where we believe change may be needed.”

Subsequent Actions

        In response to the substantial interest in the report, we have discussed its findings and
        recommendations in many different settings. We testified at two congressional hearings
        on IRBs, one held just as the report was issued in June 1998 and the other in December
        1999.2 We gave a presentation before the committee responsible for the uniform
        implementation of the common human subject protection regulations across 17 Federal

Protecting Subjects: Status of Recommendations   6                                   OEI-01-97-00197
        agencies (including HHS) and gave speeches and participated in panel discussions at the

        meetings of many professional associations.3


        During the period from June 1998 to the present, the topic of protecting research subjects

        gained considerable prominence within the Department. Of particular note was the July

        1999 decision by the HHS Secretary to relocate OPRR from NIH to the 

        Office of the Secretary and to establish a new advisory committee on protection from

        research risks to provide scientific and ethical guidance to the office. These actions, not

        yet completed, were taken to strengthen the stature and effectiveness of OPRR in its

        oversight role.


        At the same time, both NIH and FDA have been actively addressing human subject

        protections. NIH has been giving particular attention to ways of reducing the regulatory

        burden for IRBs and research institutions. FDA, in March 1999, convened a national

        meeting addressing current issues in human subject protections and has had numerous

        workgroups examining specific issues. Both NIH and FDA officials have been

        participating in private sector efforts intended to develop mechanisms for accrediting

        human subject protection programs. With the September 1999 death of an 18-year-old

        participating in a gene transfer trial, both agencies have also been examining ways in which

        they might improve their oversight of such trials.


This Follow-up Report

        In this report, we provide an update on the implementation of the recommendations we
        offered in our June 1998 report. We do that because 2 years have passed since we first
        made the recommendations, because they have drawn considerable interest in
        congressional hearings and many other forums, and because they remain relevant to
        current, heightened concerns about human subject protections. In appendix C, we list all
        of the recommendations we made in June 1998 and indicate their state of implementation.

        This report is deliberately limited in scope. It does not represent a further examination of
        the adequacy of the Federal oversight of human subject protections or of the protections
        themselves. It accepts as a starting point our prior recommendations and seeks to provide
        an accounting of how fully they have been carried out. In that context, it does address
        some related actions that have been taken, but does not purport to be a full accounting of
        all HHS actions that are relevant to human subject protections. We recognize that our
        recommendations address complex issues which can take some time to implement. But in
        this brief report, we seek to simply and clearly address what has and has not changed.

        In providing this update, we have drawn on information obtained over the past two years
        from pertinent HHS documents, from interviews with NIH, FDA, and other HHS officials,
        and data reported to us by NIH and FDA. We have also drawn on their comments on a
        prior working draft of this report. We have sought to make our accounting as
        straightforward, accurate, and nonjudgmental as possible. But we recognize that others
        may offer different interpretations of the significance of actual actions and of the state of
        progress in implementing our recommendations.

Protecting Subjects: Status of Recommendations    7                                   OEI-01-97-00197
                        HHS Oversight Roles and Competencies

                            Delineation of HHS Authority and Activity
      Agency                   Purview                 Primary Body         Oversight Conducted
                                                      for Protections

    NIH/OPRR        research supported or otherwise        IRBs           assurance, inspections of IRBs
                      subject to regulation by HHS

        FDA         research conducted on products         IRBs            inspections of investigators,
                        subject to FDA approval                            IRBs, and research sponsors

          The Office for Protection from Research Risks (OPRR) within the NIH, acts as the primary
          body for human-subjects research oversight and guidance for the Department. HHS/NIH
          regulations were established in 1974 and in 1991 became the basis for the Common Rule for
          17 Federal Departments and agencies. The FDA established another set of regulations in 1981
          which were later harmonized, to the largest extent possible, to conform to the Common Rule in
          1991. The two sets of regulations are distinct, but very similar. The most significant
          distinction between the agencies is their purview.

  Delegation of Responsibility

          The focus of both regulations is to require the review of human research by an institutional
          review board. Institutional review boards (IRBs) are committees of scientists and lay people,
          independent of the research being conducted, who review and approve the research. As part of
          their review, boards approve the research before it can begin, provide ongoing review of
          amendments and adverse event reports, and conduct continuing reviews at least annually.
          IRBs seek to ensure adequate protections are in place and that subjects are given the
          opportunity for informed consent. For further explanation of the roles and responsibilities of
          IRBs, see appendix A.

  Oversight

          Despite the primary role of IRBs, both FDA and OPRR are responsible for subject protections

          and IRB oversight. 

          OPRR’s primary mechanism of oversight is the assurance process. Institutions wishing to

          conduct human-subjects research under OPRR jurisdiction must appoint an IRB of record by

          applying for and receiving an assurance from OPRR. The assurance is a document that states

          the institution’s commitment to uphold human-subject protection regulations and their policies

          and procedures for meeting the regulations. Institutions must renew their assurance every 5

          years, after an initial period of 3 years. OPRR also conducts a limited number of IRB

          inspections. Their reviews are primarily based on complaints or concerns about compliance. 

          Spontaneous reviews are rare. 

          FDA conducts inspections of clinical investigators, research sponsors, and IRBs. FDA

          generally inspects investigators through its bioresearch monitoring program when the

          investigators’ research is associated with a product approval application. FDA also inspects

          investigators during the conduct of research when a for-cause inspection is warranted. 



Protecting Subjects: Status of Recommendations        8                                      OEI-01-97-00197
                                             UPDATE


Since June 1998, there has been a substantial increase in the
enforcement of Federal human-subject protection
requirements.

        Within HHS, the increase in enforcement activity is the most significant action that has
        been taken to foster human-subject protections since the issuance of our report. The
        increased enforcement responds to the sense of urgency that we presented in our prior
        report and more specifically responds to our call for a greater on-site focus addressing the
        performance of IRBs.

OPRR and FDA have stepped up their on-site presence at research institutions.

        < Between April 1997 and May 1998, OPRR had conducted an on-site investigation
        at only 1 institution. Between June 1998 and March 2000, it conducted on-site
        investigations at 10 institutions.

        Since June 1998, OPRR also conducted off-site investigations (document reviews) at
        more than 140 additional institutions. It found performance problems at a number of
        institutions it investigated and has required 7 of them to suspend some or all of their
        federally funded research.

        In letters to research institutions where OPRR found weaknesses in the institutions’
        systems of protections, it cited institutions for substantive, broad-based deficiencies—
        ones that have direct consequences on the rights and safety of research subjects. For
        instance, in one case OPRR found that the IRB failed to review a research protocol’s
        recruitment procedures, including a document that discussed how to persuade reluctant
        potential subjects to enroll in the study. Some of the potential subjects from this study
        were recontacted so many times after refusing to participate that they filed a complaint,
        which led to the OPRR investigation

        < FDA’s number of routine on-site investigations of IRBs increased from 213 in
        Fiscal Year 1997, to 253 in FY 1998, and 336 in FY 1999.

        FDA’s Center for Devices and Radiological Health, for example, issued eight warning
        letters to IRBs during FY 1999, compared to zero in FY 1998. The Center for Drug
        Evaluation and Research took administrative action against eight IRBs during FY 1998
        and 1999.

        FDA’s presence in reviewing IRB practices remains much more direct and extensive than


Protecting Subjects: Status of Recommendations   9                                    OEI-01-97-00197
        that of NIH/OPRR. The strong enforcement capability of FDA is especially important as
        FDA is the primary Federal on-site presence at most research sites outside of academic
        medical centers, where an increasing proportion of research takes place.

OPRR’s oversight activities have been particularly influential in drawing attention
to the adequacy of IRB oversight and human-subject protections throughout the
research community.

        With OPRR’s reviews occurring at major medical centers and in 7 cases actually resulting
        in a temporary suspension of federally funded research those centers, they have had the
        strongest sentinel effect. Although we can not determine precisely how fully the research
        community has responded to OPRR’s recent actions, the fact that many major medical
        journals and newspapers gave prominent attention to OPRR’s enforcement actions [see
        box] suggests that these actions are being widely noted.

        Some recent
        professional                      NIH/OPRR Puts the Research Community on Notice
        conferences also
                                 “A virtually unknown federal agency with only 31 employees is
        reflected a growing      sending shock waves through the nation’s billion-dollar clinical-
        sense that Federal       research community.” Physician’s Weekly, July 19, 1999
        enforcement activities
        are being taken          “OPRR has put every federally funded U.S. research institution on
        seriously by research    notice that its right to conduct clinical research could be summarily
                                 yanked.” Science, May 21, 1999
        institutions,
        investigators, and       “But even as business goes back to normal at the prestigious medical
        IRBs. The 1999           center...new questions arose about the safety of human subjects at other
        annual meeting of        institutions around the country.” The Washington Post, May 5, 1999
        Public Responsibility
        in Medicine and          “Across the country, university administrators and researchers are
                                 worried, even panicked that the same thing could happen at their
        Research (PRIM&R)        institutions with millions of dollars of research funds from the National
        drew 1,300 attendees     Institutes of Health and pharmaceutical companies at stake.”
        compared with about      Chronicle of Higher Education, February 4, 2000
        900 the year before,
        and its first panel      “OPRR is moving with new aggressiveness to monitor IRB
                                 performance.” New York Times, May 25, 1999
        session included a
        presentation by the      “Recent suspensions indicate to some that NIH/OPRR is more
        director of research     aggressively enforcing the federal protections for human subjects”
        affairs from Rush-       American Medical News, November 1, 1999
        Presbyterian Medical
        Center, an institution
        that OPRR had visited. The presentation was entitled: “Learning from Recent Compliance
        Hot Spots: The Top Ten Compliance Problems and How to Avoid Them.” The 1999
        annual meeting of the Applied Research Ethics National Association, which immediately
        preceded the PRIM&R meeting, featured a presentation by an ethicist from Duke entitled,
        “The Duke University Experience: What Lessons Can IRBs Learn?”


Protecting Subjects: Status of Recommendations     10                                     OEI-01-97-00197
        Finally, the opening panel of a recent national conference on legal issues affecting
        academic medical centers, sponsored by the American Health Lawyers Association, was
        entitled, “Clinical Research: Staying Out of Trouble With the Regulators.”



Several promising steps have been taken. But overall, few of
our recommended reforms have been enacted.
        In the following text, we provide a brief synopsis of our prior six recommendations and a
        more detailed description of Federal actions taken, if any, since the release of the report.

Minimal progress in recasting Federal IRB requirements so that they grant IRBs
greater flexibility and hold them more accountable for results.

 Prior Recommendations:

     < Eliminate or lessen specific procedural requirements that are of questionable value. Our aim was to
     provide overburdened IRBs with greater discretion that would enable them to develop more innovative and
     strategic approaches to their reviews. There are requirements, for example, that limit what IRBs can
     accomplish in conducting protocol reviews outside of convened board meetings. In addition, we
     highlighted requirements that call for IRBs to conduct full, annual reviews of approved protocols and that
     call for complete reviews of Federal funding applications prior to funding decisions.

     < Require that IRBs undergo regular performance-focused evaluations that are carried out in accordance
     with Federal guidelines. In our review, we were struck by how little attention Federal oversight bodies and
     IRBs themselves gave to evaluating how successful IRBs were in protecting human subjects. It is time, we
     concluded, for the Federal government to mandate self-evaluations or, better yet, evaluations conducted by
     independent, outside parties. We also urged that the results of such evaluations be made public.


        Update: While some deliberations have been taking place, there have been few enacted
        reforms along the lines we recommended. The most tangible action was a November 1998
        Federal Register notice issued jointly by FDA and NIH/OPRR that expands the categories
        of research that may be reviewed by IRBs through an expedited review procedure.4 This
        change, already in process before our report was issued, does help minimize IRB
        workload, but is only one small step toward that end.

        The NIH established the Regulatory Burden Advisory Group to identify burdensome
        procedural requirements and make recommendations on steps to help streamline the
        regulatory processes for grantee institutions. Among its recommendations, the group
        proposed a change to the requirement that IRBs review all protocols before funding
        decisions are made, an improvement we suggested. NIH indicates this change is about to
        be implemented. Also, NIH/OPRR has been working with the National Cancer Institute
        to develop a pilot project to establish a central IRB that for certain trials would take on
        the review functions previously carried out by separate IRBs and streamline the process.



Protecting Subjects: Status of Recommendations         11                                        OEI-01-97-00197
        We identified no significant movement in the Federal sector in response to our call for
        performance evaluations. The most notable development in this regard is in the private
        sector, where some momentum has been established in developing a system for
        accreditation of human research protection programs. PRIM&R, a private group devoted
        to the ethical conduct of research, is working to develop performance standards and apply
        them as part of an accreditation process. Both NIH/OPRR and FDA are participating in
        these discussions. We believe that this movement toward accreditation and certification
        has significant potential for improving human subject protections and urge both
        NIH/OPRR and FDA to pay particular attention to how it might best complement their
        continuing oversight responsibilities.

Minimal progress in strengthening continuing protections for human subjects
participating in research.

 Prior Recommendations:

     < Require Data Safety Monitoring Boards (DSMBs) for certain high-risk and multi-site trials. DSMBs are
     independent assessment bodies that provide medical, scientific and other expertise that typically is not
     available on IRBs, thereby serving an invaluable function in protecting human subjects. We recommended
     that NIH and FDA take the lead in seeing that DSMBs become more firmly established as oversight
     mechanisms and become more clearly accountable.

     < Require DSMBs to provide summary information to IRBs. We urged that DSMBs provide their
     summary assessments of adverse event reports to IRBs. IRBs are swamped with individual adverse event
     reports from multi-site trials, but these reports lack the essential context to confer meaning about the
     relative safety of the trial. DSMBs can provide this context and thereby enhance the IRB’s capacity to
     assess the ongoing safety of a trial.

     < Alert IRBs to corrective actions taken against investigators under the board’s purview. Although FDA
     provides information on its website about corrective actions that result from investigator inspections, the
     Agency does not routinely inform the respective IRBs of such actions. We recommended that FDA inform
     individual IRBs when it takes corrective action against an investigator who is conducting research
     reviewed by the IRB.

     < Require sponsors and investigators to notify IRBs of any prior IRB review of a research plan.
     Sometimes sponsors shop around for an IRB that will give their protocol a favorable review. We pointed
     out that such action can undermine the IRB review process and, accordingly, urged that this requirement
     be enacted.

     < Call for increased IRB awareness of on-site research practices involving human subjects. IRBs are
     rarely aware of what actually takes place between investigator and subject. We called for IRBs to move
     beyond their focus on the informed consent document and periodically check for themselves how the actual
     consent process is working. For particularly sensitive or risky projects, we suggested they might call for
     the participation of counselors, ombudsmen, or other third parties that could be available to make certain
     that the consent process functions in the interest of human subjects.


        Update: For the most part, little has been done to strengthen continuing protections of
        clinical research subjects. Neither NIH nor FDA has issued requirements for sponsors to
        notify IRBs of prior reviews, nor have they issued guidance to IRBs to increase their
        attention to on-site research practices. FDA has not set forth regulations mandating


Protecting Subjects: Status of Recommendations         12                                         OEI-01-97-00197
        DSMBs in trials, beyond those for emergency research, or setting standards for the
        composition of DSMBs, nor has it required that existing DSMBs provide their
        assessments to the respective IRBs.5 Ongoing concern about continuing protections was
        recently reinforced by the Chairman of the President’s National Bioethics Advisory
        Commission (NBAC). Upon hearing testimony of NIH and FDA witnesses at a NBAC
        hearing, he responded, “One problem we have heard again and again is that, once an
        experiment is approved, there is a failure to follow what’s going on with the patients. I
        think there is a growing consensus that something must be done.”6

        Some promising action has been taken. When FDA finds evidence of misconduct on the
        part of clinical investigators, as of October 1998, FDA now informs the sponsors and
        IRBs associated with that investigator. In June 1998, NIH reaffirmed its policy that all
        NIH-supported or -conducted trials “should have a system for the appropriate oversight
        and monitoring of the conduct of clinical trials.”7 For example, phase III trials are
        required to have DSMBs and most involve site monitoring as part of the quality assurance
        program of the funding Institute or Center. More directly related to our
        recommendations, in June 1999, NIH issued a policy stating that all DSMBs associated
        with NIH trials are expected to forward summary reports of adverse events to IRBs.8
        This is a significant development because this summary information is key to an IRB’s
        ability to ensure the continued safety of subjects.

        In March 2000, FDA and NIH announced an initiative that could have important
        implications for the continuing review of gene transfer trials.9 Among other things, FDA
        will require sponsors of gene transfer trials to routinely submit their monitoring plans to
        FDA. FDA will review the plans, seek changes it deems necessary, and will perform
        surveillance and for-cause inspections of the trials to ensure that proper monitoring is
        taking place. This is an important response to the concerns that have been raised about
        the adequacy of the oversight of gene transfer trials. FDA’s Center for Devices and
        Radiological Health also requires sponsors of its trials to routinely submit monitoring
        plans. But both of these policies do not address a large majority of clinical trials, outside
        of gene transfer or device trials, in which patients can face significant risk. We continue to
        urge FDA and NIH take similar initiatives directed at other research areas.




Protecting Subjects: Status of Recommendations   13                                    OEI-01-97-00197
No educational requirements have been enacted for investigators or IRB
members.


 Prior Recommendations:

     < Require institutions to establish an education program for investigators in human-subject protections.
     Such a requirement exists for research involving animal subjects. We found the case for education
     requirements no less compelling for research involving humans. The mandatory education we called for
     could be provided through media such as seminars, individual instruction, videos, or on-line tutorials.

     < Require investigators receiving funding under the Public Health Service Act for research involving
     human subjects to provide a written attestation indicating that they will uphold Federal policies
     concerning human-subject protections. We recommended such an attestation as a way of heightening
     investigators’ awareness of their responsibilities as investigators and interest in participating in educational
     programs addressing human-subject protections.

     < Require IRBs to educate their members about human-subject protections. In order for IRBs to
     adequately review research protocols to ensure human-subject protections, each board member must be
     educated in both applicable Federal regulations and ethical principles. We called for a specific mandate
     that IRBs and their parent institutions provide initial and continuing education.


        Update: These recommendations draw on similar ones made in 1995 by the Commission
        on Research Integrity and, in part, parallel existing NIH policy for institutional recipients
        of research training grants.10 No Federal regulations have been enacted requiring
        institutions to establish education programs for clinical investigators. Similarly, no Federal
        requirements have been enacted calling for education for IRB members.

        NIH intramural researchers are required to complete a web-based tutorial in order to
        conduct human-subjects research on campus.11 We urge NIH to consider expanding this
        policy to all extramural researchers, who conduct the majority of research funded by NIH.

        In responses to inspection findings, NIH/OPRR and FDA have called upon institutions to
        establish education programs for clinical investigators, IRB members, and IRB staff.
        Implicit in these actions is the recognition that an adequate system of protections requires
        the sensitivity and understanding of everyone involved in human-subject research. Also
        noteworthy is that a number of institutions have taken important initiatives of their own to
        strengthen educational efforts.12

        Both NIH and FDA have increased their activity in educational outreach, conducting
        numerous training presentations and seminars for IRBs and professional groups. NIH has
        constructed a website containing bioethics resources and has launched important new
        initiatives, through training grants, that seek to involve a wide array of investigators in
        education on human subjects issues and bioethics.13 FDA is in the process of updating its
        Information Sheets, an important source of IRB guidance. NIH/OPRR hired a full-time
        educational staff person in January 1999, and is in the process of further expanding this
        staff.


Protecting Subjects: Status of Recommendations           14                                          OEI-01-97-00197
No progress in insulating IRBs from conflicts that can compromise their mission
in protecting human subjects.

 Prior Recommendations:

      < Require more extensive representation on IRBs of nonscientific and noninstitutional members. At
      present just one IRB member can wear both of these hats and satisfy the requirement. We found that to be
      an untenable situation, one that can deprive IRBs of a valuable counterbalance to internal, institutional
      pressures that can threaten their independence.

      < Reinforce to IRBs and their parent institutions the importance of IRBs maintaining sufficient
      independence. It is particularly important that IRBs not report to a part of an institution responsible for
      bringing in research funds.

      < Prohibit equity owners from participating in the IRB review process. Such a practice does not
      necessarily inhibit the independence of the review process, but it establishes a situation that can undermine
      a perception of impartiality. We recommended that it should be disallowed.


        Update: We did not identify any significant action in HHS that moves in the directions
        we called for above. We continue to regard this as a significant area warranting attention.
        In this increasingly commercialized research environment, the potential for conflicts within
        research institutions loom larger than ever. The gene transfer trials that have gained so
        much attention in recent months help reinforce the importance of such attention. In some
        of these trials, the investigators may also have financial investments in the products they
        are testing. This makes it ever more important that IRB reviews be sufficiently
        independent, both in reality and in appearance.

Minimal progress in moderating workload pressures of IRBs.


 Prior Recommendations:

      < Require that IRBs have access to sufficient resources to adequately carry out their duties. Our
      recommendation was directed not only to staff and board member resources, but also to space, computers,
      and other essential elements. We urged OPRR to hold institutions accountable for the resource
      commitments they made in their assurances and for FDA to modify its site visit protocol so that it could
      more readily identify situations where resource shortages jeopardize an IRB’s ability to oversee research.


        Update: OPRR’s enforcement efforts have brought attention to IRB resource shortages
        at individual institutions and have led to additional support for IRB functions at a number
        of those institutions—and quite likely at others that have taken note of the OPRR efforts.
        However, no further action has been taken to develop indicators of adequate resource
        levels or to enable greater investments to support IRB functions. One approach that
        warrants more attention, and that NIH reports is under consideration, would be to allow
        an additional increment of grant funds to institutions to be used to provide necessary
        resources for IRBs. Such an approach could help reinforce to institutions and
        investigators that a well-supported IRB is a necessary cost of doing business.


Protecting Subjects: Status of Recommendations           15                                          OEI-01-97-00197
Minimal progress in reengineering the Federal oversight process.

 Prior Recommendations:

     < Revamp the NIH/OPRR assurance process. NIH/OPRR’s oversight process has been concentrated on
     reviewing up-front assurances aimed at obtaining an institution’s commitment to adhere to Federal
     requirements. We found that assurance process to be paperwork-laden with little effect on IRB
     functioning. We urged that NIH/OPRR reorient the assurance process so that it rests on an institutional
     attestation to conform to Federal requirements, and then devote more NIH/OPRR resources to periodic
     performance-based reviews of institutions and their IRBs.

     < Revamp the FDA on-site inspection process. We recognized that FDA has a much greater on-site
     presence than NIH/OPRR, but urged that FDA transform its site visit protocol from a narrow compliance
     orientation to one that is much more performance-based. Such an approach would pay particular attention
     to how individuals were actually being approached about participating as human subjects and to how IRBs
     were making risk-benefit trade-offs.

     < Require IRBs to register with the Federal government. We found that one of the major impediments to
     Federal oversight of human-subjects research is that there is no complete registry of the IRBs reviewing
     this research. Such a registry would be invaluable for FDA and NIH/OPRR as it would allow them to
     target their oversight and communicate more effectively with IRBs.


        Update: OPRR’s and FDA’s response, as we have already indicated, has been quite
        significant in one sense. Since issuing our report, both bodies, have increased their
        enforcement efforts and in so doing have fostered compliance with Federal regulations.

        But neither FDA nor NIH/OPRR have to date enacted any significant revamping of their
        oversight processes as we have called for—even though they can initiate such reform
        without the constraints of the Common Rule as explained below. This is unfortunate
        because stepped up enforcement without a more efficient, performance-oriented
        enforcement process will still leave us with an oversight system that falls well short of its
        potential.

        While FDA has substantially increased its IRB inspections since the issuance of our report,
        it has not yet engineered any significant changes in its approach to these inspections. The
        inspections remain narrow and focused on compliance. We recognize the importance of
        ensuring compliance, but we continue to believe that FDA is losing a major opportunity by
        not injecting a more results-oriented focus to its inspections. As we indicated in our June
        1998 report, such a focus would involve paying particular attention to how individuals are
        actually being approached about participating as human subjects and to how IRBs are
        making continuing assessments of risk-benefit trade-offs. It might also involve some
        probing on how often potential subjects actually turn down requests to participate in
        research or on how much time they are given to deliberate about participation.

        NIH/OPRR reports that it has been developing plans to streamline the assurance process
        as we called for in our June 1998 report and in accord with a congressional directive to
        lessen the regulatory burden associated with extramural scientific research. But no actual


Protecting Subjects: Status of Recommendations        16                                         OEI-01-97-00197
        change has taken place to date. When and if such change occurs, we continue to urge
        NIH/OPRR to heed our recommendation that some of the Federal resources freed up by
        the reform should be directed to periodic performance-oriented reviews of IRBs

        Finally, it is important to note that FDA has formed a working group to establish an IRB
        registration system. The working group has agreed upon specifications for this registry
        that reflect many of our suggestions. However, nothing has been implemented yet. We
        encourage the group to follow through with this effort.


The Common Rule represents a significant barrier to HHS
progress in implementing many of our recommendations.
        In 1991, the HHS core regulations concerning IRBs and human-subject protections
        became the basis of a common Federal policy on human-subject protections. The Federal
        policy, known as the Common Rule, is adhered to by HHS and 16 other Federal agencies.
        Any changes to the Rule call for the concurrence of all 17 Federal agencies.

        Several of our recommendations can be carried out through administrative changes, for
        example through contract and grant language. Many others are incorporated in the
        Common Rule. In reacting to our June 1998 report and to an earlier version of this
        report, NIH emphasized that it cannot unilaterally implement any of those
        recommendations that concern the Common Rule. It reminded us that a number of the
        changes we call for—for instance, more extensive representation on IRBs of nonscientific
        and noninstitutional members or stronger requirements on IRBs having sufficient
        independence—could not be carried out without the agreement of the other 16 agencies.
        It also made it clear that this was a long and complex process. NIH’s point, we have to
        recognize, is well-taken.

        The intention of having a common Federal policy on human subject protections is an
        important one. One set of standards fosters a level of consistency in protections of human
        subjects in many different areas of research and is easier for researchers and sponsors to
        understand and comply with. At the same time, we must acknowledge that the reality of
        gaining concurrence among 17 Federal agencies inhibits a timely and effective HHS
        response to a number of our recommendations. With the clinical research environment
        changing rapidly, we believe it is essential for the Federal policy and regulatory actions to
        keep pace. The current cumbersome process associated with changing the Common Rule
        seems to preclude that. It suggests that legislative change may be necessary to achieve a
        timely implementation of many of our recommendations.




Protecting Subjects: Status of Recommendations   17                                    OEI-01-97-00197
                                 Looking Ahead

Gene Transfer Research as a Catalyst

        The untimely death of the subject in a gene transfer trial has raised the public’s awareness
        of the risks that can be associated with clinical research and has spurred some important
        initiatives by NIH and FDA. These include: (1) a new requirement calling for study
        sponsors to submit to FDA monitoring plans for gene transfer trials and (2) a series of
        gene transfer safety symposia that will bring together, in public forums, leading experts to
        discuss the conduct and potential of this important research.14 These initiatives may prove
        to be quite helpful. But, they apply only to gene transfer trials. It is essential, we believe,
        for similar attention to be directed to ensuring human-subject protections for a broader
        universe of clinical trials, particularly those in which patients face significant risks.

The Need for Additional Sources of Expertise

        Our June 1998 report focused on IRBs, but concluded with recommendations on a broad
        range of Federal actions that must be taken to protect human subjects. That is because
        our inquiry convinced us that IRBs alone can not do the job and that in various subtle
        ways IRBs are expected to carry too much of the burden. We ought not to allow the
        reform agenda to focus strictly on what can be done to buttress IRBs. That is why we
        give so much attention to Federal actions that can help educate investigators, who, while
        they are in a position to do the most harm to patients, are also in a position to do the most
        good. It is why we have called in a recent report for developing stronger guidelines on
        human subject recruitment practices.15 It is also why we draw attention to the vital role
        that DSMBs can play, particularly for trials that pose significant risks to patients and
        multi-site trials.

Our Recommendations as a Reference Point

        The recommendations we presented in our June 1998 report offer an important reference
        point for how the current effort to enhance protections for subjects can be extended. We
        continue to support the recommendations we made in our earlier report and call for a
        greater sense of urgency in carrying them out. They offer a balanced and practical set of
        actions that would strengthen human-subject protections without impeding the clinical
        research that has much potential for society and perhaps even for the individuals
        participating in the clinical trials. They reflect a respect for the largely collegial manner in
        which IRBs operate and seek to nourish the volunteer contributions that have provided the
        underpinning of IRB reviews. Yet they recognize that verification and accountability must
        also be important features of a system intended to protect human subjects.




Protecting Subjects: Status of Recommendations    18                                     OEI-01-97-00197
        While our recommendations serve as an important framework for reform, we do not
        intend to suggest that they provide a complete blueprint for action. In the months ahead,
        we will be conducting further inquiry that more closely examines how HHS oversight can
        help enhance human subject protections. In that period, the National Bioethics Advisory
        Commission (NBAC) is also likely to offer further guidance on the kind of changes that
        need to be made in the Federal regulatory system. Its recommendations will offer
        valuable perspective and grounding for the reform agenda that we continue to call for with
        a sense of urgency.

New Opportunity for Leadership

        Once OPRR is located in the Office of the Secretary and a new advisory committee on
        protection from research risks is established, as the HHS Secretary has called for, HHS
        will have a significant new opportunity to exert Federal leadership in protecting human
        subjects.

        We urge that the new office give significant attention to our prior recommendations and to
        those that will be forthcoming from NBAC. We also urge that it continue the important
        enforcement efforts undertaken by OPRR over the past 2 years. In increasingly
        commercialized research environments where IRBs are facing heightened pressures to
        conduct quicker reviews, the NIH/OPRR efforts have served as a reminder to research
        institutions, sponsors, individual investigators, and IRBs that the reviews must still be
        substantive ones that ensure adequate protections for human subjects. In the important
        quest to reduce regulatory burdens, it is important not to lose sight of this underlying
        protection function.

Continued Significance of FDA and NIH Roles

        At the same time, we continue to call for stronger FDA and NIH responses to our
        recommendations. Even with the establishment of the new office, both agencies retain
        significant statutory and operational responsibilities for protecting human subjects. With
        FDA conducting about 300 on-site inspections of IRBs each year, it still has the most
        visible on-site presence and thus is in the best position to identify shortcomings and
        opportunities for improvement. We recognize that FDA must operate with limited
        resources, but much could be accomplished through a revamping of its on-site inspection
        process in the performance-oriented direction we spelled out. FDA can make better use
        of the opportunities its site visits offer as catalysts for positive change. In addition, we
        continue to urge FDA to expedite its efforts to require registration of IRBs.

        As a major funder of clinical research and as a major link with the research community,
        NIH retains significant roles in ensuring human-subject protections despite the relocation
        of OPRR. We urge particular attention to our recommendations calling for Federal
        requirements to ensure that investigators are adequately educated about and sensitized to
        human-subject protections. It is vital, we continue to believe, for NIH to exert stronger,
        more directed leadership in this educational arena.


Protecting Subjects: Status of Recommendations   19                                    OEI-01-97-00197
                                                                                  APPENDIX A


                        Institutional Review Boards: The Basics

What Do They Do?

        The responsibilities of IRBs fall into two main categories: initial review and continuing
        review of research involving human subjects.

        Initial Review. IRBs review and approve a research plan before the research is carried
        out. This review encompasses the research protocol, the informed consent document to
        be signed by subjects, any advertisements to be used in recruiting subjects, and other
        relevant documents. In carrying out this review, the boards seek to ensure that any risks
        subjects may incur are warranted in relation to the anticipated benefits, that informed
        consent documents clearly convey the risks and the true nature of research, that
        advertisements are not misleading, and that the selection of subjects is equitable and
        justified. IRBs focus much attention on the informed consent document because it is the
        vehicle for providing information to potential research subjects.

        Continuing Review. The continuing review process is multifaceted and includes required
        reviews at an interval appropriate to the degree of risk but not less than once per year. In
        addition to this continuing review, IRBs receive periodically and review amendments and
        reports of subjects’ unexpected adverse experiences. This review seeks to ensure that the
        risk-benefit ratio of the research remains acceptable.

Why Were They Established?

        As public awareness and concern about the treatment of human subjects in research
        increased, the need for additional review mechanisms was evident. These concerns grew
        from stories of the abuse of subjects during the World War II trials at Nuremberg, the
        promotional distribution of thalidomide resulting in numerous children born with birth
        defects, the administration of cancer cells to chronically ill and senile patients at a hospital
        in New York, and others. In 1966, Henry Beecher brought prominent attention to human
        research abuses in medical schools and hospitals, citing 22 cases involving highly
        questionable ethics. The formal requirements for the establishment of IRBs were outlined
        in regulations stemming from the National Research Act of 1974 and in FDA regulations
        issued in 1981.

Where Are They Located?

        An estimated 3,000-5,000 IRBs can be found across the country. They are most
        commonly associated with hospitals and academic centers. Boards also exist in managed
        care organizations, government agencies (such as the NIH, FDA, the Centers for Disease



Protecting Subjects: Status of Recommendations     20                                    OEI-01-97-00197
        Control and Prevention, and State governments), or as independent for-profit entities.

How Are They Organized?

        Federal regulations require that boards have at least five members with varying
        backgrounds. At least one member must have primarily scientific interests, one must have
        primarily nonscientific interests, and one must be otherwise unaffiliated with the institution
        in which the IRB resides. A quorum, with at least one member whose interests are
        primarily nonscientific present, is needed for voting.

How Does the Department of Health and Human Services (HHS) Oversee Them?

        Two agencies within HHS share responsibility for IRB oversight: NIH, through its Office
        for Protection from Research Risks (NIH/OPRR), and the FDA. The NIH/OPRR’s main
        tool for oversight is the assurance document. Any institution that intends to conduct
        HHS-funded research must have an assurance on file with NIH/OPRR. The assurance is a
        written statement of an institution’s requirements for its IRB and human-subject
        protections. Institutions consistently conducting multiple HHS-supported studies are
        eligible for a multiple project assurance which can be renewed every 5 years. Institutions
        with smaller HHS-funded workloads, however, use a single project assurance for each
        such project it conducts. The NIH/OPRR also conducts a small number of site visits. The
        FDA’s main mechanism for IRB oversight is the inspection process. FDA becomes aware
        of IRBs when they are listed by a clinical investigator in a statement that the investigator
        will comply with all pertinent regulations. The FDA also inspects research sponsors and
        scientists (also known as research investigators).




Protecting Subjects: Status of Recommendations   21                                    OEI-01-97-00197
                                                                                APPENDIX B


                                                 FINDINGS

                       Institutional Review Boards: A Time for Reform
                                 (OEI-01-97-00193), June 1998

        What follows are the findings taken from the Executive Summary of our June 1998 report,
        Institutional Review Boards: A Time For Reform:

The Effectiveness of IRBs Is in Jeopardy.

        They Face Major Changes in the Research Environment. The current framework of
        IRB practices was shaped in the 1970s in an environment where research typically was
        carried out by a single investigator working under government funding with a small cohort
        of human subjects in a university teaching hospital. In recent years, that environment has
        been changing dramatically as a result of the expansion of managed care, the increased
        commercialization of research, the proliferation of multi-site trials, new types of research,
        the increased number of research proposals, and the rise of patient consumerism. Each of
        these developments has presented major disruptions and challenges for IRBs. “Never
        before,” concluded one recent review, “has such a pressure-cooker atmosphere prevailed
        within the IRB system.”

        They Review Too Much, Too Quickly, with Too Little Expertise. This is especially
        apparent in many of the larger institutions. Expanded workloads, resource constraints,
        and extensive Federal mandates contribute to a rushed atmosphere where sufficient
        deliberation often is not possible. At the same time, the IRBs frequently are hard-pressed
        to gain access to the scientific expertise they need to reach informed judgments about the
        research taking place under their jurisdiction.

        They Conduct Minimal Continuing Review of Approved Research. In the
        environment described above, continuing review often loses out. Even where there is the
        will, there often is not the time to go beyond the perfunctory obligations. A lack of
        feedback from other entities that oversee multi-site trials contributes to the problem. The
        result is that IRBs have all too little information about how the informed consent process
        really works and about how well the interests of subjects are being protected during the
        course of research.

        They Face Conflicts That Threaten Their Independence. Clinical research provides
        revenue and prestige to the institutions to which many IRBs belong. The institutions
        expect IRBs to support these interests at the same time that they protect human subjects.
        The resulting tension can lessen the IRBs’ focus on their basic mission. The minimal
        “outside” representation that typically exists on IRBs deprives them of an important
        counterbalance to the institutional interests. For independent IRBs, the dependence on


Protecting Subjects: Status of Recommendations      22                                OEI-01-97-00197
        revenue from industry sponsors exerts similar possibilities for conflict.

        They Provide Little Training for Investigators and Board Members. The IRB system
        depends heavily on research investigators’ commitment to uphold human-subject
        protections. But as that system now operates, it offers little educational outreach to
        investigators to help them become informed and sensitized about these protections.
        Similarly, it provides minimal orientation and continuing education for IRB members—a
        deficiency that is especially detrimental to nonscientific and noninstitutional members.

        Neither IRBs Nor HHS Devote Much Attention to Evaluating IRB Effectiveness.
        IRBs rarely conduct inquiries to determine how well they are accomplishing their mission;
        their judgments of effectiveness rely mainly on the number of protection lapses or
        complaints that are brought to their attention. The HHS agencies conducting oversight
        seldom go any further. The Office for Protection from Research Risks, in the National
        Institutes of Health, focuses almost entirely on up-front assurances. The Food and Drug
        Administration relies on compliance-focused inspections.




Protecting Subjects: Status of Recommendations    23                                OEI-01-97-00197
                                                                                                           APPENDIX C


         Current Status of FDA and NIH/NIH/OPRR Response to Recommendations
                Institutional Review Boards: A Time for Reform (OEI-01-97-00193), June 1998

                     Recommendation                                                                   Status
1. Recast           1a. Eliminate or lessen some of the procedural      < FDA and OPRR issued more expedited review categories (11/98)
Federal             requirements                                        < OPRR/NCI proposed demonstration project using a central IRB to
Requirements                                                            streamline processes

                    1b. Require IRBs undergo regular                    < No action
                    performance-based evaluations                       < Private accreditation movement initiated

2. Strengthen       2a. Require Data Safety Monitoring Boards           < NIH reasserts policy on appropriate monitoring of its trials (5/98)
Continuing          (DSMBs) for certain trials                          < No other action
Protections
                    2b. Require DSMBs to provide summary                < NIH requires its DSMBs to share summary info. with IRBs (6/99)
                    information to IRBs                                 < No other action

                    2c. Alert IRBs to corrective actions taken          < FDA now notifies IRBs and sponsors of actual and potential
                    against investigators under their purview           misconduct by clinical investigators

                    2d. Require sponsors and investigators to           < No action
                    notify IRBs of any prior review

                    2e. Call for increased IRB awareness of on-         < No action
                    site research practices

3. Enact            3a. Require institutions to establish an            < NIH has launched a number of initiatives and OPRR has required
Educational         education program for investigators in              the establishment of education programs as a result of investigations
Requirements        human-subj. protections                             < No action towards a requirement

                    3b. Require investigators provide a written         < No action
                    attestation to uphold human-subj. protections

                    3c. Require IRBs to educate their members           < No action
                    about human-subj. protections                       < FDA and NIH/OPRR have required the establishment of educ.
                                                                        programs as a result of investigations and are active in outreach

4. Help Insulate    4a. Require more extensive representation of        < No action
IRBs from           nonscientific and noninstitutional members
Conflicts That
Threaten Their      4b. Reinforce the importance of IRBs                < No action
Independence        maintaining sufficient independence

                    4c. Prohibit equity owners from participating       < No action
                    in the IRB review process

5. Recognize        5. Require that IRBs have the resources to          < No action
Workload            adequately carry out their duties
Pressures

6.Reengineer        6a. Revamp NIH/OPRR assurance process               < NIH has initiated a proposal to streamline the assurance process
Federal
Oversight           6b. Revamp FDA on-site inspection process
Process                                                                 < FDA has increased its on-site presence, but no other action

                    6c. Require IRBs register with the Federal          < FDA set working group for registration process, but no action yet
                    gov.



        Protecting Subjects: Status of Recommendations             24                                              OEI-01-97-00197
                                                                                      APPENDIX D

                                                 Endnotes

1. (1) Advisory Committee on Human Radiation Experiments, Final Report, (Washington DC:
U.S. Government Printing Office, 1995). (2)U.S. General Accounting Office, Scientific
Research: Continued Vigilance Critical to Protecting Human Subjects, GAO/HEHS-96-72,
March 1996. (3) Department of Health and Human Services, Office of Inspector General,
Investigational Devices: Four Case Studies (OEI-05-94-00100), April 1995.

2. (1) Institutional Review Boards: A System in Jeopardy?: Before the House Comm. on
Government Reform and Oversight, 105th Cong., June 11, 1998. (2) Do Current Federal
Regulations Adequately Protect People Who Participate in Medical Research?: Before the
Subcomm. on Criminal Justice, Drug Policy, and Human Resources of the House Comm. on
Government Reform, 106th Cong., December 9, 1999.

3. These groups include, but are not limited to, Public Responsibility in Medicine and Research,
Applied Research Ethics National Association, the Society of Administrative Managers of General
Clinical Research Centers, the American Health Lawyers Association, and the Food and Drug
Law Institute.

4. 63 Fed. Reg. 60,364-60,367 (November 9, 1998).

5. FDA does require DSMBs for trials in emergency circumstances in which informed consent is
waived. (21 C.F.R. 50.24)

6. Phillip Hilts, “Panel Seeks Better Monitoring of Experiments Using People,” New York Times,
March 2, 2000.

7. “NIH Policy for Data and Safety Monitoring,” National Institutes of Health, June 10, 1998.
[http://www.nih.gov/grants/guide/notice-files/not98-084.html, accessed 4/1/99]

8. “Guidance on Reporting Adverse Events to Institutional Review Boards for NIH-supported
Multicenter Clinical Trials,” National Institutes of Health, June 11, 1999.
[http://grants.nih.gov/grants/guide/notice-files/not99-107.html, accessed 3/00]

9. “New Initiatives to Protect Participants in Gene Therapy Trials,” National Institutes of Health,
March 7, 2000. [http://www.nih.gov/news/pr/mar2000/od-07.htm, accessed 3/00]

10. The Commission on Research Integrity, Integrity and Misconduct in Research, (Washington,
DC: U.S. Government Printing Office, November 1995).

11. The web-based tutorial is available on the internet at [http://helix.nih.gov:8001/ohsr/newcbt/]

12. Of particular note is the effort at the University of Rochester. After the death of a healthy
subject participating in a trial, University administration formed a committee to recommend
needed reforms. The Committee recommended, “that all investigators at the University be
informed adequately, and on a continuing basis, of the fundamental requirements, responsibilities
and ethical issues related to the conduct of human subject research.” In addition, it recommended

Protecting Subjects: Status of Recommendations                25                              OEI-01-97-00197
“that this be accomplished in the setting of a formalized educational program and that a
reasonable effort be made to assess the understanding of the information conveyed.” As a result,
all investigators must follow a self-study training program and pass a brief exam before their
projects will be reviewed by the IRB and, thus, before they may conduct clinical research at the
university. (Further information, see [http://www.urmc.rochester.edu/urmc/rsrb/hspp.htm, accessed 3/00])

13. The website can be found at [www.nih.gov/sigs/bioethics/]. The training initiatives include a
short-term training program in bioethics, for which 15 awards have been given to date, a clinical
program in 35 academic health centers which addresses clinical research more generally but also
includes bioethics issues, and a mentored scientist award that supports scientists who want to
specialize in training in bioethics.

14. “New Initiatives to Protect Participants in Gene Therapy Trials,” National Institutes of
Health, March 7, 2000. [http://www.nih.gov/news/pr/mar2000/od-07.htm, accessed 3/00]

15. Department of Health and Human Services, Office of Inspector General, Recruiting Subjects
for Industry-Sponsored Clinical Research (OEI-01-97-00196), in draft.




Protecting Subjects: Status of Recommendations     26                                     OEI-01-97-00197
